HHS/OIG-Audit--"Compliance with the Prompt Payment Act by the National Institutes of Heath, (A-15-94-00032)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Compliance with the Prompt Payment Act by the National Institutes of
Health," (A-15-94-00032)
July 15, 1996
Complete Text of Report is available in PDF format
(1.8 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of Compliance with the Prompt
Payment Act (Act) by the National Institutes of Health (NIH). The audit objectives
were to determine whether NIH pays bills on-time, remits interest penalties
when payments are made late, and takes discounts that are advantageous to the
Government; accurately reports payments and progress made with respect to complying
with the Act; and assesses the reliability of its payment process.
We found that the NIH made late payments for 20 percent of the 657,058 invoices
in Fiscal Year (FY) 1994 that were subject to the Act. It incurred interest
penalties of $242,221. This occurred because quality controls in the NIH payment
process needs to be streamlined.
We recommended that NIH improve quality controls in its payment process to:
require that invoices be processed within the established OMB time frames
and date stamped in an office other than the Accounts Payable Section; and
that the payment system automatically authorizes payment after the purchase
order, invoice, and report of receipt of goods are reconciled;
computing interest penalties through the payment date as required by the
Act; and
recording and making discount determinations automatically by electronically
comparing discount terms with the Department of Treasury's Current Value of
Funds.
We also recommended that NIH routinely assess the reliability of its payment
process as required by the Act. The NIH generally agreed with our recommendations.